No. 21-145

In the Supreme Court of the United States
_____________________________

GORDON COLLEGE, et al.,
Petitioners,
v.
MARGARET DEWEESE-BOYD,
Respondent.
_____________________________

On Petition for Writ of Certiorari to the
Supreme Judicial Court of Massachusetts
______________________________

BRIEF FOR NEBRASKA, ALABAMA, ALASKA,
ARIZONA, ARKANSAS, GEORGIA, INDIANA,
KANSAS, KENTUCKY, LOUISIANA,
MISSISSIPPI, MISSOURI, MONTANA, OHIO,
OKLAHOMA, SOUTH CAROLINA,
TENNESSEE, TEXAS, UTAH, AND WEST
VIRGINIA AS AMICI CURIAE IN SUPPORT OF
PETITIONERS
______________________________

OFFICE OF THE NEBRASKA
ATTORNEY GENERAL
2115 State Capitol
Lincoln, NE 68509
(402) 471-2682
jim.campbell@nebraska.gov

DOUGLAS J. PETERSON
Attorney General of Nebraska
DAVID T. BYDALEK
Deputy Attorney General
JAMES A. CAMPBELL
Solicitor General
Counsel of Record

Counsel for Amici Curiae States
[Additional counsel listed at end of brief]

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ..................................... iii
INTEREST OF AMICI CURIAE ............................... 1
SUMMARY OF THE ARGUMENT ........................... 2
REASONS FOR GRANTING THE PETITION ........ 4
I.

This Court’s precedents dictate that the ministerial exception applies in this case. ................. 4
A. Ministerial-exception analysis focuses on
the organization’s religious mission and the
plaintiff’s importance in achieving it. .............. 5
B. DeWeese-Boyd’s teaching and mentorship
roles are vital to Gordon’s mission of religious education and spiritual formation. ......... 7

II. The Massachusetts decision conflicts with
this Court’s caselaw. .......................................... 10
A. The decision ignored Our Lady’s missionbased ministerial analysis and instead applied a checklist-based approach...................... 10
B. The decision failed to respect Gordon’s
reasonable view that DeWeese-Boyd plays a
vital part in carrying out its mission. ............ 11
C. The decision dismissed as religiously inferior the kind of teaching that infuses religious principles into discussions of secular
topics. .............................................................. 14
D. The decision treated a duty to lead prayer
and other devotional exercises as essential
to ministerial status. ...................................... 16

ii
E. The decision arbitrarily minimized Our
Lady’s broad holding. ..................................... 18
F. The decision unreasonably characterized
the implications of ruling for Gordon............. 19
III. The Massachusetts decision undermines
States’ compelling interest in avoiding entanglement with religious organizations. .............. 20
CONCLUSION ......................................................... 23

iii
TABLE OF AUTHORITIES
Cases
Corp. of Presiding Bishop of Church of Jesus
Christ of Latter-day Saints v. Amos,
483 U.S. 327 (1987) ........................................ 13, 15
Emp. Div. Dep’t of Hum. Res. of Oregon v. Smith,
494 U.S. 872 (1990) .............................................. 12
Grussgott v. Milwaukee Jewish Day Sch. Inc.,
882 F.3d 655 (7th Cir. 2018). ............................... 15
Hosanna-Tabor Evangelical Lutheran
Church & Sch. v. E.E.O.C.,
565 U.S. 171 (2012) ....................................... passim
Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church in N. Am.,
344 U.S. 94 (1952) .................................................. 5
Larson v. Valente,
456 U.S. 228 (1982) ........................................ 16, 17
N.L.R.B. v. Cath. Bishop of Chicago,
440 U.S. 490 (1979) .................................. 12, 15, 21
Our Lady of Guadalupe Sch. v.
Morrissey-Berru,
140 S. Ct. 2049 (2020) ................................... passim
United States v. Seeger,
380 U.S. 163 (1965) .............................................. 13
Statutes
Neb. Rev. Stat. § 48-1117................................... 20, 21
Neb. Rev. Stat. § 48-1118......................................... 21
Neb. Rev. Stat. § 48-1120......................................... 20

iv
Neb. Rev. Stat. § 48-1120.01.................................... 20

1
INTEREST OF AMICI CURIAE1
Amici curiae are the States of Nebraska, Alabama,
Alaska, Arizona, Arkansas, Georgia, Indiana, Kansas, Kentucky, Louisiana, Mississippi, Missouri,
Montana, Ohio, Oklahoma, South Carolina, Tennessee, Texas, Utah, and West Virginia. We file this brief
in support of the petitioners and assert two interests.
First, amici seek to protect the First Amendment
rights of religious institutions. Among those rights is
the freedom to make employment decisions concerning key personnel without governmental interference.
Using state employment law to punish religious schools for those decisions jeopardizes that freedom. The
Massachusetts Supreme Judicial Court’s reasoning
narrowly defines the class of professors at religious
institutions who qualify for the ministerial exception,
and in so doing, threatens to override the First Amendment rights of faith-based universities.
Second, amici also have an interest in protecting
their enforcement agencies and courts from excessive
entanglement in the internal affairs of religious organizations. Clear jurisprudence on the ministerial
exception is critical to achieving this goal because
when the standards are clear, those agencies and
courts can dismiss discrimination complaints brought
by ministerial employees earlier in the process before
entanglement occurs. The Massachusetts ruling is
especially problematic because it (1) creates doctrinal
ambiguity through its strained effort to confine this
Court’s holding in Our Lady of Guadalupe School v.
As required by Supreme Court Rule 37.2(a), amici timely
notified the parties of their intent to file this brief.
1

2
Morrissey-Berru, 140 S. Ct. 2049 (2020), (2) applies
standards that require States to dive deeply into the
spiritual affairs of religious schools, and (3) illegitimately distinguishes religious instruction on spiritual issues from religious instruction on secular topics.
For these reasons, amici ask this Court to grant
review or summarily reverse the lower court’s decision.
SUMMARY OF THE ARGUMENT
I. The First Amendment protects the autonomy of
religious organizations, and the ministerial exception
guarantees those groups’ freedom from governmental
oversight when selecting and managing certain key
employees. To determine whether the exception applies, courts must focus on, as this Court did in Our
Lady, the organization’s religious mission and the
plaintiff employee’s importance in achieving it.
Under that standard, the ministerial exception
covers Respondent Margaret DeWeese-Boyd. Her primary duties include (1) teaching religious principles
while instructing students on social work and (2) participating in the spiritual formation of her students.
Petitioner Gordon College is an undisputedly Christian university that considers these duties essential
to its religious mission of instilling both intellectual
maturity and Christian character in its students. The
Massachusetts Supreme Judicial Court should have
respected that reasonable religious judgment and declined to interject itself into this personnel dispute.
II. But the Massachusetts court chose a different
course, holding that the ministerial exception does

3
not apply to DeWeese-Boyd’s position. It reached that
conclusion only by systematically failing to follow this
Court’s guidance. These failures manifest themselves
in at least six ways.
First, the court below did not ask the fundamental
question posed in Our Lady—whether the teacher’s
duties are vital to carrying out the school’s religious
mission. Instead, it adopted a rigid, checklist-based
analysis reminiscent of what this Court has repeatedly condemned.
Second, and relatedly, the Massachusetts ruling
did not show proper respect for Gordon’s reasonable
view that DeWeese-Boyd’s duties are critical to the
school’s religious mission.
Third, the decision below hinged on a supposed
distinction between religious instruction solely on
religion and religious instruction on secular topics.
The lower court discounted the mixing of religious
and secular instruction as insufficiently spiritual to
warrant ministerial protection, but the First Amendment forbids courts from making those kinds of value
judgments.
Fourth, the state court treated the duty of leading
students in prayer or other devotional exercises as a
prerequisite to attaining ministerial status. Fifth, the
decision under review arbitrarily constrained Our
Lady’s holding, which announced broad protection for
the First Amendment rights of religious schools.
Sixth, the lower court distorted the implications of
ruling for Gordon, implausibly claiming that such a
decision would extend ministerial protection to all
employees at all religious institutions.

4
III. Amici States are keenly interested in this case
because our administrative agencies and courts are
active in enforcing and applying the kinds of employment-nondiscrimination laws that DeWeese-Boyd invokes here. Illustrating the breadth of that involvement, consider that our agencies investigate discrimination complaints, issue discovery requests, compel
discovery production, issue probable-cause determinations, oversee mediation, and adjudicate claims.
These duties present risks of church-state entanglement whenever complaints are filed against faithbased organizations.
The Massachusetts decision significantly expands
these entanglement concerns. It does so by shrinking
the class of religious-school teachers that qualify as
ministerial and by creating analytical ambiguity on
how to apply the ministerial exception. In addition,
the opinion assigns decisive relevance to (1) a teacher’s duty to lead students in prayer or other devotional exercises and (2) the intermingling of religious
instruction with secular topics, thereby requiring
States to explore these religious matters before dismissing complaints under the ministerial exception.
Because the Massachusetts decision greatly increases
the risks of church-state entanglement, this Court
should grant review or summarily reverse.
REASONS FOR GRANTING THE PETITION
I.

This Court’s precedents dictate that the
ministerial exception applies in this case.

When evaluating attempts to invoke the ministerial exception, this Court focuses on the defendant’s
religious mission and the plaintiff’s importance in
achieving it. Under that test, the exception applies in

5
this case because DeWeese-Boyd’s teaching and mentorship roles are essential to Gordon’s mission of religious education and spiritual formation.
A. Ministerial-exception analysis focuses on
the organization’s religious mission and
the plaintiff’s importance in achieving it.
This Court has long recognized that the First
Amendment protects the autonomy of religious organizations. It ensures their freedom “to decide for themselves, free from state interference, matters of [internal] government as well as those of faith and doctrine.” Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church in N. Am., 344 U.S. 94, 116 (1952).
The ministerial exception is rooted in these
autonomy principles, as this Court recognized in
Hosanna-Tabor Evangelical Lutheran Church &
School v. E.E.O.C., 565 U.S. 171, 185–87 (2012). Punishing a religious group for failing “to accept or retain
an unwanted minister,” Hosanna-Tabor explained,
“intrudes upon more than a mere employment decision.” Id. at 188. “Such action interferes with the internal governance” of the organization, depriving it
“of control over the selection of those who will personify its beliefs.” Ibid. The ministerial exception’s purpose, then, is to “protect[] a religious group’s right to
shape its own faith and mission through its appointments” of vital personnel. Ibid.
Hosanna-Tabor considered “all the circumstances
of [the plaintiff’s] employment” and decided that she
qualified for the exception. Id. at 190. The opinion
highlighted four factors relevant there: (1) the plaintiff’s “formal title,” (2) “the substance” including reli-

6
gious education “reflected in that title,” (3) the plaintiff’s “own use of that title,” and (4) “the important
religious functions she performed.” Id. at 192. But the
Court refused “to adopt a rigid formula for deciding
when an employee qualifies as a minister.” Id. at 190.
The Court elaborated on this further in Our Lady
of Guadalupe School v. Morrissey-Berru, 140 S. Ct.
2049 (2020). Picking up where Hosanna-Tabor left off,
Our Lady reiterated that the test for deciding
whether an employee attains ministerial status is not
a rigid checklist. E.g., id. at 2055 (eschewing “a rigid
formula”); id. at 2062 (same). Rather, courts must determine, based on “all relevant circumstances,” whether the “position implicate[s] the fundamental purpose of the exception.” Id. at 2067. That purpose,
again, is to protect religious organizations’ freedom to
make “internal management decisions that are essential to the institution’s central mission,” including
“the selection of the individuals who play certain key
roles.” Id. at 2060.
Thus, the proper analysis, as Our Lady demonstrates, revolves around the religious organization’s
core mission. Id. at 2066 (“Educating and forming students in the . . . faith lay at the core of the mission of
the schools where they taught”). And the relevant
question is whether the plaintiff plays a vital “role in
. . . carrying out [that] mission.” Id. at 2063 (quoting
Hosanna-Tabor, 565 U.S. at 192); see also ibid. (considering “the importance attached to [the plaintiff’s]
role”); id. at 2069 n.1 (Thomas, J., concurring) (explaining that the ministerial exception extends to employees “entrusted with carrying out the religious

7
mission of the organization”). That depends on whether the employee performs tasks that “lie at the very
core of the mission.” Id. at 2064. And the organization’s view that the employee “play[s] a vital part in
carrying out the mission . . . is important”—and must
not be lightly overridden—because “judges cannot be
expected to have a complete understanding and appreciation of the role played by every person” in every
religious organization. Id. at 2066.
The Our Lady dissent confirmed all these aspects
of the Court’s opinion. The dissent recognized that the
majority focused on “a single consideration: whether
[the school] thinks its employees play an important
religious role.” Id. at 2072 (Sotomayor, J., dissenting).
When deciding that question, the majority deemed
the schools “in the best position to explain” the “functional importance” of their employees’ role. Id. at
2076. The ministerial exception thus applies, the dissent observed, when a school reasonably “determines
that an employee’s ‘duties’ are ‘vital’ to ‘carrying out
the mission of the [school].’” Id. at 2082 (quoting id. at
2066); see also id. at 2081 (characterizing the majority
opinion as holding that teachers are “‘ministers’ of the
Catholic faith . . . because of their supervisory role
over students in a religious school”).
B. DeWeese-Boyd’s teaching and mentorship
roles are vital to Gordon’s mission of religious education and spiritual formation.
Under the analysis established in Our Lady and
Hosanna-Tabor, the ministerial exception bars DeWeese-Boyd’s suit. The analysis must start, as Our
Lady shows, with Gordon’s mission. According to its

8
mission statement, Gordon’s purpose is to instill “intellectual maturity and Christian character” in its
students. Pet. App. 133a. To achieve these objectives,
Gordon has dedicated itself to, among other things,
“[s]cholarship that is integrally Christian” and “[t]he
maturation of students in all dimensions of life: body,
mind and spirit.” Ibid.
Gordon’s faculty are key to advancing this mission.
As the court below recognized, Gordon’s handbook requires faculty to “promot[e] understanding of their
disciplines from the perspectives of the Christian
faith,” “help[] students make connections between
course content, Christian thought and principles, and
personal faith and practice,” and “encourag[e] students to develop morally responsible ways of living in
the world informed by biblical principles and Christian reflection.” Pet. App. 24a–25a; see also id. at
118a–19a (same). The school also assigns faculty the
duty to “participate actively in the spiritual formation
of . . . students” and “engage . . . students in meaningful ways to strengthen them in their faith walks.” Id.
at 26a. These tasks “lie at the very core of [Gordon’s]
mission.” Our Lady, 140 S. Ct. at 2064.
Gordon left no doubt that it considers these
religious-integration and spiritual-formation duties
essential to its mission. Concerning the duty to infuse
religious principles into their teaching, Gordon’s
handbook states that “among the tasks of the Christian educator” at Gordon, “none is more important
than . . . the integration of faith, lea[r]ning and
living.” Pet. App. 119a. And emphasizing the duty to
shape students’ spiritual development, the handbook
has affirmed, since before this litigation began, that

9
faculty members are “ministers to [the] students” because they are “expected to participate actively in
the[ir] spiritual formation.” Id. at 10a.
Further confirming DeWeese-Boyd’s ministerial
status is her role as a messenger to the students. This
Court has recognized that the ministerial exception
covers a religious organization’s messengers—those
charged with “conveying the [group’s] message.” Our
Lady, 140 S. Ct. at 2063 (quoting Hosanna-Tabor, 565
U.S. at 192); see also id. at 2064 (“the exception should
include any employee who . . . serves as a messenger
. . . of its faith”) (quoting Hosanna-Tabor, 565 U.S. at
199 (Alito, J., concurring)) (cleaned up). “The Constitution leaves it to the collective conscience of each
religious group to determine for itself who is qualified
to serve as a . . . messenger of its faith.” HosannaTabor, 565 U.S. at 202 (Alito, J., concurring).
The facts here establish that DeWeese-Boyd
serves as one of Gordon’s voices to its students. Again,
she is tasked with teaching social work “from the perspectives of the Christian faith” and connecting
“course content” to “Christian thought and principles.” Pet. App. 118a–19a. Her instruction is thus
the school’s message to its students on what it means
to engage in social work based on Christian principles.
As Justice Alito acknowledged in his HosannaTabor concurrence, “[r]eligious groups are the archetype of associations formed for expressive purposes,
and their fundamental rights surely include the
freedom to choose who is qualified to serve as a voice
for their faith.” 565 U.S. at 200–01. This freedom is
critical because, as Our Lady recognized, a “wayward”

10
professor’s “teaching” or “counseling could contradict
[Gordon’s] tenets and lead [students] away from the
faith.” 140 S. Ct. at 2060. Because DeWeese-Boyd performs crucial teaching and mentoring duties central
to the success or demise of Gordon’s religious mission,
the ministerial exception applies to her.
II. The Massachusetts decision conflicts with
this Court’s caselaw.
The case for applying the ministerial exception
here is compelling—so strong in fact that it is mystifying how the Massachusetts Supreme Judicial Court
missed it. The reason why, quite simply, is a systematic failure to heed this Court’s guidance in Our Lady
and Hosanna-Tabor. Six legal errors are readily apparent.
A. The decision ignored Our Lady’s missionbased ministerial analysis and instead
applied a checklist-based approach.
The lower court’s most egregious misstep is its
failure to apply the analysis prescribed in Our Lady.
When evaluating whether DeWeese-Boyd is a ministerial employee, the court did not focus on Gordon’s
mission or the importance of DeWeese-Boyd’s role in
carrying it out. Rather, it employed a factor-based
analysis, considering what DeWeese-Boyd did, her
“title” and “training,” and whether she “held herself
out as a minister.” Pet. App. 24a–31a. Based on this
flawed foundation, the court proceeded to announce a
factor-based holding, declaring that DeWeese-Boyd
did not qualify for ministerial status because, among
other things, she “was not ordained,” “did not view
herself as a minister,” and did not “participate in or

11
lead religious services . . . or teach a religious curriculum.” Id. at 33a.
But Our Lady could not have been clearer in
denouncing a rigid, checklist-based approach, making
that point no less than five times in its opinion. E.g.,
140 S. Ct. at 2055 (eschewing “a rigid formula”); id. at
2062 (same); id. at 2067 (criticizing the lower court for
“treat[ing] the circumstances that we found relevant
in [Hosanna-Tabor] as checklist items to be assessed
and weighed against each other in every case”); id. at
2068 (“[T]here is no basis for treating the circumstances we found relevant in Hosanna-Tabor in . . . a rigid
manner.”); id. at 2069 (noting again that HosannaTabor “declined to adopt a ‘rigid formula’”). Going
further still, the Court clarified that the factors considered in Hosanna-Tabor need not “be met” and are
not “necessarily important” in other cases. Id. at 2063;
see also id. at 2064 (reiterating that those factors “are
not inflexible requirements and may have far less
significance in some cases”). Instead, the proper
analysis focuses on the school’s religious mission and
asks whether the employee serves a vital “role in . . .
carrying out [that] mission.” Id. at 2063 (quoting
Hosanna-Tabor, 565 U.S. at 192). By failing to engage
in this kind of analysis, it is no wonder the Massachusetts court missed the mark by a mile.
B. The decision failed to respect Gordon’s
reasonable view that DeWeese-Boyd plays
a vital part in carrying out its mission.
The Massachusetts court’s second major mistake
followed inescapably from its first. Because it did not
ask whether DeWeese-Boyd’s tasks are integral to
Gordon’s religious mission, the court necessarily

12
failed to recognize the “importan[ce]” of Gordon’s view
that DeWeese-Boyd “play[s] a vital part in carrying
out [its] mission.” Our Lady, 140 S. Ct. at 2066.
Giving due consideration to the religious school’s
reasonable views about the employee’s role was key to
the Our Lady opinion. Ibid. Even the dissent recognized this about the majority’s analysis, correctly
observing that the majority deemed religious groups
“in the best position to explain” the “functional importance” of each employee’s role. Id. at 2076 (Sotomayor,
J., dissenting). The dissent also concluded that the
ministerial exception applies when a religious organization reasonably “determines that an employee’s
‘duties’ are ‘vital’ to ‘carrying out the mission of the
[school].’” Id. at 2082 (quoting id. at 2066).
Here, it is eminently reasonable for Gordon to believe that DeWeese-Boyd’s teaching and mentorship
duties are central to its religious mission of developing students with intellectual maturity and Christian
character. This Court’s own caselaw has long “recognized the critical and unique role of the teacher in fulfilling the mission of a church-operated school.”
N.L.R.B. v. Cath. Bishop of Chicago, 440 U.S. 490, 501
(1979).
Respecting a religious organization’s reasonable
views on these spiritual matters is a constitutional
imperative. After all, it is “unacceptable” and beyond
the judiciary’s competence “to question the centrality
of particular . . . practices to a faith.” Emp. Div., Dep’t
of Hum. Res. of Oregon v. Smith, 494 U.S. 872, 887
(1990) (citation omitted). And “judges cannot be expected to have a complete understanding and appreciation of the role played by every person” in every

13
religious organization. Our Lady, 140 S. Ct. at 2066.
Thus, courts must defer to a group’s reasonable views
about the religious significance of its employee’s
duties. See Corp. of Presiding Bishop of Church of
Jesus Christ of Latter-day Saints v. Amos, 483 U.S.
327, 342 (1987) (Brennan, J., concurring) (requiring
judicial “[s]olicitude” for a religious organization’s determination that “certain activities are in furtherance
of [its] religious mission”).
Affording respect to these religious judgments
does not mean that courts rubber stamp whatever the
organization says. Judges must assess whether the
group’s professions are “sincerely held.” United States
v. Seeger, 380 U.S. 163, 185 (1965) (discussing “the
threshold question of sincerity which must be resolved in every case”). This sincerity inquiry may include confirming that the employee does in fact perform the duties that the entity identifies as mission
critical. But courts cannot simply override the group’s
view of its religious mission and the importance of the
employee in achieving it, as the Massachusetts court
did here.
True, the decision below said that “[a] religious
institution’s explanation of the role of [its] employees
in the life of the religion in question is important.”
Pet. App. 28a (quoting Our Lady, 140 S. Ct. at 2066).
But the court misapplied that quote, reciting it when
evaluating the significance of the “title” or “label”
attached to DeWeese-Boyd’s position. Id. at 28a–29a.
In contrast, Our Lady instructs courts to respect the
religious group’s view that the employee’s duties are
crucial to the organizational mission. 140 S. Ct. at

14
1066. Massachusetts’s high court thus completely
missed the point of what Our Lady said.
C. The decision dismissed as religiously inferior the kind of teaching that infuses
religious principles into discussions of
secular topics.
Another significant error is the lower court’s
attempt to distinguish Our Lady on legally indefensible grounds. It said that the teachers in Our Lady
were different than DeWeese-Boyd because they taught “classes on religion” while she infused religious
precepts into her classes on social work. Pet. App. 24a.
DeWeese-Boyd’s “responsibility to integrate the Christian faith into her teaching, scholarship, and advising,” the court explained, “was different in kind,
and not degree, from the religious instruction and guidance at issue in Our Lady.” Id. at 33a. By declaring
DeWeese’s religious instruction “different in kind,”
the court effectively determined that it was not religious at all—or at least was of categorically lesser
religious significance.
Yet this reasoning rests on an unduly constrained
view of religion and religious instruction. The teaching of religious principles does not lose its religious
character—or become of reduced religious importance—just because it connects those principles to
secular topics. A synagogue’s discussion night on how
best to apply its faith’s teachings to care for the poor
and orphaned in its local community is plainly
religious in nature. So too is DeWeese-Boyd’s lectures
connecting social work to “Christian thought and
principles.” Pet. App. 119a. The intermingling of religious and secular instruction does not somehow erase

15
the religious content and purpose. On the contrary,
this Court has consistently assumed the opposite:
that religious-school teachers delivering “secular instruction” will “intertwine[]” meaningful “religious
doctrine” in what they present. Cath. Bishop of Chicago, 440 U.S. at 501 (citation omitted).
Massachusetts’s high court veered far outside its
legitimate lane by branding as irreligious—or religiously inferior—teaching that connects religious
principles to secular topics. It is “inappropriate,” explained a Seventh Circuit panel that included then
Judge Barrett, for courts to “draw[] a distinction between secular and religious teaching . . . when doing so
involves . . . challenging a religious institution’s
honest assertion that a particular practice is a tenet
of its faith.” Grussgott v. Milwaukee Jewish Day Sch.,
Inc., 882 F.3d 655, 660 (7th Cir. 2018) (per curiam).
“[N]ot only is this type of religious line-drawing incredibly difficult, it impermissibly entangles the government with religion.” Ibid.; see also Amos, 483 U.S.
at 343 (Brennan, J., concurring) (noting that often the
religious or secular “character of an activity is not
self-evident” and that “ a searching case-by-case analysis” of that distinction “results in considerable ongoing government entanglement in religious affairs”).
Indeed, if the ministerial exception treats pure religious instruction different from integrated religious
instruction, that will inevitably lead to judges scrutinizing teachers’ curriculum and lectures to determine
on which side of the line they fall. But poring over a
religious school’s curriculum to judge its religiosity is
a task unbefitting the judiciary.

16
Beyond that, devaluing integrated religious teaching as the court below did will result in preferring
some faith traditions and religious institutions over
others. Under that approach, the First Amendment
will favor monastics and separatists that emphasize
the study of pure religious doctrine over religious
sects that seek to incorporate faith into all aspects of
their adherents’ lives. Similarly, seminaries devoted
to theology will be privileged over institutions like
Gordon that incorporate religious teaching into secular topics. The First Amendment does not tolerate
such favoritism. See Larson v. Valente, 456 U.S. 228,
244 (1982) (“[O]ne religious denomination cannot be
officially preferred over another.”). Because the state
court allowed this, its decision should be reversed.
D. The decision treated a duty to lead prayer
and other devotional exercises as essential to ministerial status.
In another glaring blunder, Massachusetts’s high
court viewed the duty of leading student prayer and
other devotional exercises as a prerequisite to attaining ministerial status. Pet. App. 24a (“DeWeese-Boyd
was not required to, and did not, . . . pray with her
students, or attend chapel with her students, like the
plaintiffs in Our Lady . . . , nor did she lead students
in devotional exercises or lead chapel services, like
the plaintiff in Hosanna-Tabor . . . . We consider this
a significant difference.”); id. at 33a (mentioning the
same points in the court’s holding). Yet again, such a
rigid, checklist-based analysis ignores the lessons of
Hosanna-Tabor and Our Lady.
By elevating prayer and devotional exercises to
essential practices, the court below relied on an overly

17
formalistic view of religion. Without those tasks, the
court seemed to think, DeWeese-Boyd is not materially involved in developing her students’ faith. But
that is simply not true. Her duties include “participat[ing] actively in the spiritual formation of . . . students” and engaging them “in meaningful ways to
strengthen . . . their faith walks.” Pet. App. 26a. She
did this regularly and organically by “attend[ing] services at the chapel . . . with students,” id. at 128a–29a,
“invit[ing]” students to attend “church w[ith] her family,” id. at 131a, and engaging students in personal
“discussion[s] . . . after class,” ibid. This sort of spiritual mentorship undoubtedly influences students’
religious development. Dismissing this mentorship
duty, just because it was unaccompanied by mandatory devotional exercises, was grave legal error.
Moreover, “attaching too much significance” to
compulsory prayer and chapel attendance “risk[s]
privileging religious traditions with formal” means of
worship “over those that are less formal.” Our Lady,
140 S. Ct. at 2064. For instance, under Massachusetts’s approach, religious colleges that begin every
class with professor-led prayer will receive more constitutional protection than schools like Gordon that do
not. Likewise, faith-based institutions that require
their professors to regularly recite spiritual texts will
have a greater shield against liability. Yet this is
deeply concerning because, as discussed above, courts
must not adopt an analysis that prefers some “religious denomination[s]” over others, Larson, 456 U.S.
at 244, and a religious institution’s formality should
not determine its constitutional protection, Our Lady,
140 S. Ct. at 2064.

18
E. The decision arbitrarily minimized Our
Lady’s broad holding.
The decision below also conflicts with the broad
holding in Our Lady. The Our Lady opinion opened by
acknowledging the broad protection available to religious schools whose mission is the spiritual formation
of their students. “The religious education and formation of students,” this Court stated, “is the very reason
for the existence of most private religious schools, and
therefore the selection and supervision of the teachers
upon whom the schools rely to do this work lie at the
core of their mission.” Our Lady, 140 S. Ct. at 2055.
“Judicial review of the way in which religious schools
discharge those responsibilities would undermine the
independence of religious institutions in a way that
the First Amendment does not tolerate.” Ibid. Adding
to this, the Our Lady opinion closed in similarly sweeping terms: “When a school with a religious mission
entrusts a teacher with the responsibility of educating
and forming students in the faith, judicial intervention into disputes between the school and the teacher
threatens the school’s independence in a way that the
First Amendment does not allow.” Id. at 2069.
This case falls comfortably within Our Lady’s
broad holding. It is undisputed that Gordon’s mission
is the “religious education and formation of students.”
Id. at 2055; see, e.g., Pet. App. 133a. And it is undisputed that professors like DeWeese-Boyd have “the
responsibility of educating and forming students in
the faith.” Our Lady, 140 S. Ct. at 2069; see, e.g., Pet.
App. 118a–19a. So it should have been clear that the
ministerial exception bars DeWeese-Boyd’s claims.

19
Although the state court refused to reach that conclusion, it could not help but recognize Our Lady’s
sweeping holding, acknowledging that it “may be read
more broadly” than that court’s chosen construction.
Pet. App. 34a. But the decision below nonetheless
adopted an unduly narrow interpretation that stripped Gordon of its autonomy to select, promote, or decline to promote its professors free from judicial oversight. This was manifest error that warrants reversal.
F. The decision unreasonably characterized
the implications of ruling for Gordon.
The lower court’s final major misstep was its attempt to caricature the impact of ruling for Gordon.
At one point, it suggested that a win for Gordon would
likely apply to “all[] religious institutions.” Pet. App.
35a. But the main reason why the ministerial exception applies to Gordon is its mandate that professors
integrate religious principles into their teaching and
participate in the spiritual formation of students. Id.
at 118a–19a. Because the lower court gave no basis to
assume that all other religious institutions impose
those same requirements on their faculty, there is no
basis to speculate that the ruling here would apply to
all religious colleges.
Reaching further still, the Massachusetts ruling
also said that if Gordon prevails, the ministerial exception will “apply . . . to all [Gordon’s] employees,”
including “food service workers” and “transportation
providers.” Pet. App. 34a–35a. Yet this ignores that
professors like DeWeese-Boyd have very different
duties than cafeteria workers and bus drivers. For
example, DeWeese-Boyd is required to include in her
instruction a discussion of “Christian thought and

20
principles.” Id. at 119a. But nothing suggests that
cafeteria employees and bus drivers share that same
duty. Nor is it reasonable to assume that they do. In
addition, Gordon’s professors are its messengers to
students in the classroom in a way that these other
employees are not. Thus, the attempt to draw an
equivalence between these very different groups of
employees cannot be credited.
In short, ruling for Gordon would not expand the
ministerial exception to cover every employee at every
religious university. By claiming that it would, the
Massachusetts court held up a fig leaf in a feeble
attempt to conceal its indefensible departure from
Our Lady.
III. The Massachusetts decision undermines
States’ compelling interest in avoiding entanglement with religious organizations.
Amici States are very involved in enforcing our
employment-nondiscrimination laws. We have enforcement agencies—such as human-rights or equalopportunity commissions—that investigate, mediate,
and adjudicate discrimination claims. E.g., Neb. Rev.
Stat. § 48-1117. And our courts routinely decide employment disputes. E.g., Neb. Rev. Stat. § 48-1120
(authorizing appeals from commission rulings to state
courts); Neb. Rev. Stat. § 48-1120.01 (authorizing litigants to file a discrimination lawsuit directly in state
trial courts).
Concerns about church-state entanglement arise
whenever citizens file these employment complaints
against religious organizations. While States must
tread with care in these circumstances, the lower

21
court’s decision makes it more difficult to avoid unconstitutional entanglement.
To begin with, the lower court’s reasoning expands
the entanglement risks by drastically shrinking the
class of religious-school teachers who fall under the
ministerial exception. State enforcement agencies
and courts will thus be forced to interject themselves
in more internal disputes between faith-based institutions and their instructors.
In addition, the possibilities of entanglement multiply the longer a legal dispute progresses through the
state system. See Cath. Bishop of Chicago, 440 U.S. at
502 (noting that “the very process of [government] inquiry leading to [adjudicative] findings and conclusions” “may impinge on rights guaranteed by the Religion Clauses”). Consider all the administrative and
judicial tasks assigned to state enforcement agencies
and courts. For instance, agencies “investigate . . .
charges of unlawful employment practices,” demand
“written response[s]” from employers, issue “interrogatories,” compel the production of documents, require
employers to “make and keep [employment] records,”
issue “probable cause finding[s],” conduct “mediation[s]” and “arbitration[s],” “hold hearings,” and
“subpoena witnesses.” Neb. Rev. Stat. § 48-1117(1)–
(5), 48-1118(1)–(4). And the courts, for their part,
referee discovery disputes, compel the production of
documents and other information, and ultimately
adjudicate employer liability. Each of these successive
tasks increases the likelihood that the States will
become intertwined with internal religious affairs
and sensitive religious questions.

22
That is why clear contours on the ministerial exception are essential for state agencies and courts
charged with these duties. When the law is clear,
agencies can quickly issue no-probable-cause determinations, and courts can grant motions to dismiss.
Such speedy resolutions, in turn, avoid the entanglement that so often results from document demands,
discovery disputes, pretext analysis, and liability determinations.
But the Massachusetts Supreme Judicial Court
trades the clarity that Our Lady gave for an intricate,
checklist-based test that necessitates excessive state
probing of religious schools. Under its approach, enforcement agencies and courts cannot dismiss complaints that teachers file against their faith-based
institutions until the State first explores (1) whether
the teacher’s religious instruction is too intertwined
with secular discussion to retain its religious significance and (2) whether the teacher engages in mandatory prayer and devotional exercises. But even inquiring into these religious matters, as explained above,
demands the very kind of entanglement that the First
Amendment forbids.
Reversing the Massachusetts decision would avoid
all that. It would establish that no State must delve
so deeply into a faith-based school’s religious affairs.
That would go a long way toward protecting amici
States from the church-state entanglement they seek
to avoid.

23
CONCLUSION
For the foregoing reasons, the Court should grant
the petition or summarily reverse the Massachusetts
Supreme Judicial Court’s decision.
Respectfully submitted,
OFFICE OF THE NEBRASKA
ATTORNEY GENERAL
2115 State Capitol
Lincoln, NE 68509
(402) 471-2682
jim.campbell@nebraska.gov

DOUGLAS J. PETERSON
Attorney General of Nebraska
DAVID T. BYDALEK
Deputy Attorney General
JAMES A. CAMPBELL
Solicitor General
Counsel of Record

Counsel for Amici Curiae States
[Additional counsel listed on the following pages]

SEPTEMBER 2, 2021

24
ADDITIONAL COUNSEL
STEVE MARSHALL
Attorney General
State of Alabama

JEFF LANDRY
Attorney General
State of Louisiana

TREG R. TAYLOR
Attorney General
State of Alaska

LYNN FITCH
Attorney General
State of Mississippi

MARK BRNOVICH
Attorney General
State of Arizona

ERIC S. SCHMITT
Attorney General
State of Missouri

LESLIE RUTLEDGE
Attorney General
State of Arkansas

AUSTIN KNUDSEN
Attorney General
State of Montana

CHRIS CARR
Attorney General
State of Georgia

DAVE YOST
Attorney General
State of Ohio

THEODORE E. ROKITA
Attorney General
State of Indiana

JOHN M. O’CONNOR
Attorney General
State of Oklahoma

DEREK SCHMIDT
Attorney General
State of Kansas

ALAN WILSON
Attorney General
State of South Carolina

DANIEL CAMERON
Attorney General
Commonwealth of Kentucky

HERBERT H. SLATERY III
Attorney General
State of Tennessee

25
KEN PAXTON
Attorney General
State of Texas
SEAN D. REYES
Attorney General
State of Utah

PATRICK MORRISEY
Attorney General
State of West Virginia

